Report No. D-2011-117                  September 30, 2011





        American Recovery and Reinvestment Act — 

        Repair Project at Camp Pendleton, California, 

             Needed Improvements in Planning

Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
FAR                           Federal Acquisition Regulation
IPT                           Integrated Product Team
NAVFAC SW                     Naval Facilities Engineering Command Southwest
OMB                           Office of Management and Budget
PWD                           Public Works Department
RFP                           Request for Proposal
                                       INSPECTOR GENERAL
                                       DEPARTMENT OF DEFENSE
                                        400 ARMY NAVY DRIVE
                                  AR LINGTON , VIRGINIA 22202-4704



MEMORANDUM FOR NAV AL INSPECTOR GENERAL
                                                                                      SltP 3 0 21111
               MARINE CORPS INSPECTOR GENERAL
               COMMANDING OFFICER, NAVAL FACILITIES
                 ENGINEERING COMMAND SOUTHWEST
               COMMANDING OFFICER, MARINE CORPS BASE
                 CAMP PENDLETON

SUBJECT: American Recovery and Reinvestment Act-Repair Project at Camp Pendleton,
         California, Needed Improvements in PlalUling (Report No. D-20 11-117)

We are providing this report for your review and comment. Although Naval Facilities
Engineering Conunand Southwest and Camp Pendleton persOlU1el properlY 'funded, initially
executed, and tracked and reported the $8.9 million repair of bachelor enlisted quarters (the
Repair Project), they did not adequately plan the project. We considered management conunents
on a draft of this repOl1 when preparing the final repOl1.

DoD Directive 7650.3 requires that recommendations be resolved promptly. We received
conunents from the Principal Deputy, Office of the Assistant Secretary of the Navy (Energy,
Installations & EnvirOlunent) on behalf of the Conunanding Officer, Naval Facilities
Engineering ConU11and Southwest and the Conunanding Officer, U .S. Marine Corps Base Camp
Pendleton. The Principal Deputy's comments to ReconU11endations I.a, I.b, 2.a, and 2.b. were
partially responsive. His comments to Recommendation I.c were responsive. Therefore, we
request the Navy provide additional COll1ments on Reconunendations I.a, I.b, 2.a, and 2.b by
October 31, 2011.

Ifpossible, please send a .pdffile containing your COll1ments to audros@dodig.mil. Copies of
the management COll1ments must contain the actual signature of the authorizing official. We are
unable to accept the ISignedi symbol in place of the actual signature. If you arrange to send
classified comments electronically, you must send them over the SECRET Internet Protocol
Router Network (SIPRNET).

We appreciate the com1esies extended to the staff. Please direct questions to me at
(703) 604-8866 (DSN 312-664-8866).



                                            {)J tJ{j.
                                            AliceF. Carey ~
                                            Assistant Inspector General
                                            Readiness, Operations, and Support
THIS PAGE INTENTIONALLY LEFT BLANK 

Report No. D-2011-117 (Project No. D2009-D000LH-0319.000)                        September 30, 2011

               Results in Brief: American Recovery and
               Reinvestment Act—Repair Project at
               Camp Pendleton, California, Needed
               Improvements in Planning

What We Did                                              (bachelor enlisted quarters) that they used to
                                                         update requirements.
Our objective was to evaluate DoD’s
implementation of Public Law 111-5,
                                                         As a result, DoD did not have reasonable
“American Recovery and Reinvestment Act of
                                                         assurance that repairs were necessary and that
2009” (Recovery Act), February 17, 2009.
                                                         Recovery Act funds were appropriately used.
Specifically, we determined whether personnel
from Naval Facilities Engineering Command
(NAVFAC) Southwest and the U.S. Marine                   What We Recommend
Corps Base Camp Pendleton appropriately used             We recommend that the Commanding Officer,
Recovery Act funds by adequately planning,               NAVFAC Southwest and the Commanding
funding, initially executing, and tracking and           Officer, U.S. Marine Corps Base Camp
reporting Project P-0438, “Repair of the                 Pendleton, review project requirements
Bachelor Enlisted Quarters,” (the Repair                 documentation for existing projects and ensure
Project), valued at about $8.9 million.                  files are accurate and complete.

What We Found                                            Also, we recommend that the Commanding
                                                         Officer, NAVFAC Southwest, validate that
Although NAVFAC Southwest and Camp
                                                         approximately $800,000 in Recovery Act funds
Pendleton personnel properly funded, initially
                                                         were returned to NAVFAC headquarters.
executed, and tracked and reported the Repair
Project, they did not adequately plan the project.
NAVFAC Southwest Integrated Product Team                 Management Comments and
(IPT) and Camp Pendleton Public Works                    Our Response
Department personnel did not have complete               The Principal Deputy, Office of the Assistant
documentation to support approximately                   Secretary of the Navy (Energy, Installation and
$8.3 million in Recovery Act funds for the               Environment) responded on behalf of the
project. Specifically, we found the following            Commanding Officer, Naval Facilities
deficiencies:                                            Engineering Command Southwest; and
                                                         Commanding Officer, U.S. Marine Corps Base
•	 Public Works Department personnel did not             Camp Pendleton, to a draft of this report issued
   properly complete the 2009 DD Form 1391,              on August 1, 2011. The Principal Deputy’s
   “Military Construction Project Data,”                 comments to Recommendation 1.c were
   (DD Form 1391);                                       responsive. However, the Principal Deputy’s
•	 Public Works Department personnel based               comments pertaining to Recommendations 1.a,
   the Repair Project’s requirements on a 2005           1.b, 2.a, and 2.b were partially responsive. We
   request for proposal and a 2002 DD Form               request that the Navy provide additional
   1391; and                                             comments on Recommendations 1.a, 1.b, 2.a,
•	 NAVFAC Southwest and Public Works                     and 2.b by October 31, 2011. Please see the
   Department personnel did not document their           recommendations table on the back of this page.
   2008 walkthroughs of building 52609
                                                     i
Report No. D-2011-117 (Project No. D2009-D000LH-0319.000)           September 30, 2011


      Recommendations Table

      Management                   Recommendations          No Additional Comments
                                   Requiring Comment        Required
      Commanding Officer, Naval    1.a, 1.b                 1.c
      Facilities Engineering
      Command Southwest
      Commanding Officer, U.S.     2.a, 2.b
      Marine Corps Base Camp
      Pendleton

      Please provide comments by October 31, 2011.




                                              ii
Table of Contents
Introduction	                                                        1     


      Objective                                                      1     

      Recovery Act Background                                        1

      Recovery Act Requirements                                      1

      Repair Project Background                                      2

      Review of Internal Controls                                    2


Finding. NAVFAC SW IPT and Camp Pendleton PWD Personnel Did Not 

Adequately Plan the Repair Project                                   4


      Federal Guidance Requires Project Documentation                4

      Project Documentation Prepared but Incomplete                  4

      Timely Distribution of Recovery Act Funds                      7

      Contract Execution Was Adequate                                7

      Processes Were in Place to Track and Report Project            7

      Conclusion                                                     7     

      Recommendations, Management Comments, and Our Response         8



Appendices

      A. 	Scope and Methodology                                     11 

          Use of Technical Assistance                               11 

          Use of Computer-Processed Data                            12 

          Prior Audit Coverage                                      12 

      B. 	Recovery Act Criteria and Guidance                        13 


Management Comments

      Department of the Navy 	                                      15 

Introduction
Objective
Our objective was to evaluate DoD’s implementation of Public Law 111-5, “American
Recovery and Reinvestment Act of 2009,” (Recovery Act), February 17, 2009.
Specifically, we determined whether personnel from U.S. Marine Corps Base Camp
Pendleton (Camp Pendleton), California, and Naval Facilities Engineering Command
Southwest (NAVFAC SW) in San Diego, California, adequately planned, funded,
initially executed, and tracked and reported Project P-0438, “Repair of the Bachelor
Enlisted Quarters,” (the Repair Project). See Appendix A for a discussion of our scope
and methodology.

Recovery Act Background
In passing the Recovery Act, Congress provided supplemental appropriations to preserve
and create jobs; promote economic recovery; assist those most impacted by the recession;
provide investments to increase economic efficiency by spurring technological advances
in science and health; and invest in transportation, environmental protection, and other
infrastructure. The Recovery Act also established unprecedented efforts to ensure the
responsible distribution of funds for its purposes and to provide transparency and
accountability of expenditures by informing the public of how, when, and where tax
dollars were being spent.

Recovery Act Requirements
On April 3, 2009, the Office of Management and Budget (OMB) issued
Memorandum M-09-15 to provide Government-wide guidance and requirements for the
implementation of the Recovery Act. The guidance and requirements are intended to
meet accountability goals: (1) funds are awarded and distributed in a prompt, fair, and
reasonable manner; (2) the recipients and uses of all funds are transparent to the public,
and the public benefits of these funds are reported clearly, accurately, and in a timely
manner; (3) funds are used for authorized purposes and instances of fraud, waste, error,
and abuse are mitigated; (4) projects funded under the Recovery Act avoid unnecessary
delays and cost overruns; and (5) program goals are achieved, including specific program
outcomes and improved results on broader economic indicators.

DoD received approximately $7.16 billion1 in Recovery Act funds for projects that
support the Act’s purposes. In March 2009, DoD released expenditure plans for the
Recovery Act, which list DoD projects that will receive Recovery Act funds. The
Department of the Navy received $1.17 billion in Recovery Act funds for Operations and
Maintenance; Military Construction; and Research, Development, Test, and Evaluation.
Of the $1.17 billion appropriated to the Department of the Navy, NAVFAC headquarters


1
 DoD originally received $7.4 billion; however, Public Law 111-226, Title III, “Rescissions,” rescinded
$260.5 million on August 10, 2010. The $7.16 billion does not include $4.6 billion for U.S. Army Corps of
Engineers civil works projects.

                                                   1

personnel allocated approximately $8.9 million to the Repair Project. Ultimately, about
$8.3 million of the $8.9 million was allotted to NAVFAC SW for the Repair Project.
NAVFAC headquarters retained approximately $600,000 of the $8.9 million in reserve.

Repair Project Background
Camp Pendleton is the U.S. Marine Corps’ largest expeditionary training facility for
active and reserve Marine, Army, and Navy units as well as Federal, State, and local
agencies. Camp Pendleton’s mission is to operate a training base that promotes the
combat readiness of the operating forces and the mission of other tenant commands by
providing training opportunities, facilities, services, and support to marines, sailors, and
their families.

On March 11, 2009, Camp Pendleton Public Works Department (PWD) personnel
prepared a DD Form 1391, “Military Construction Project Data,” for the Repair Project,
valued at $8.9 million, to restore building 52609, the bachelor enlisted quarters.
According to the DD Form 1391, building 52609 was a four-story structure built in 1989,
containing more than 61,000 square feet. The building had 154 rooms and served as
billeting for 308 marines and sailors. The restoration of building 52609 (which included
installing seismic upgrades, removing hazardous material, and replacing the roof2) would
provide 20-plus years of habitable housing for School of Infantry students, according to
the DD Form 1391.

According to the DD Form 1391, building 52609 deteriorated to the point that systems
and materials were failing—plumbing leaks were the source of most maintenance
requests. The toilets and showers were in poor condition, heating was inoperable in some
of the living units, laundry facilities were in an advanced state of disrepair with extensive
damage to walls and ceilings from water pipe leaks, and mold and mildew existed. The
Impact If Not Provided statement cited “continued deterioration of the BEQ [Bachelor
Enlisted Quarters] resulting in increased operations and maintenance costs, violation of
health and safety standards, loss of room usage, and inadequate capacity for billeting.”

The Repair Project was generally completed by April 2010 by the contractor, Barnhart
Incorporated. At that time, NAVFAC SW personnel authorized the contractor to conduct
follow-up work and clean-up activities. NAVFAC SW officials also permitted marines
and sailors to move back into building 52609. In September 2010, the contractor
completed all repairs for the Repair Project.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, states that internal controls are the organization, policies, and procedures
that help program and financial managers to achieve results and safeguard the integrity of
their programs by reducing the risk of adverse activities. The Instruction also requires


2
 During our visit in October 2009, the demolition phase was near completion. Therefore, we did not view
the building’s condition.

                                                   2

DoD Components to establish a Managers’ Internal Control Program to review, assess,
and report on the effectiveness of internal controls. We identified a control weakness
specific to inadequate planning for the Repair Project. Specifically, NAVFAC SW
Integrated Product Team (IPT) and Camp Pendleton PWD personnel did not comply with
established controls for documenting the Repair Project’s requirements. We will provide
a copy of the report to the senior official responsible for internal controls at NAVFAC
SW and Camp Pendleton.




                                           3

Finding. NAVFAC SW IPT and Camp
Pendleton PWD Personnel Did Not
Adequately Plan the Repair Project
NAVFAC Southwest IPT and PWD personnel did not adequately plan the Repair Project.
Personnel did not have complete documentation to support approximately $8.3 million in
Recovery Act funds for the Repair Project. Specifically:

   •	 PWD personnel did not properly complete the 2009 DD Form 1391;
   •	 PWD personnel based the Repair Project’s requirements on a 2005 request for
      proposal (RFP) and a 2002 DD Form 1391; and
   •	 NAVFAC SW IPT and PWD personnel did not document their 2008 

      walkthroughs of building 52609 that they used to update requirements. 


In addition, PWD personnel did not fully complete the economic analysis to determine
the most efficient and effective use of resources. As a result, DoD did not have
reasonable assurance that Recovery Act funds were used appropriately. However,
NAVFAC Southwest and Camp Pendleton personnel properly funded, initially executed,
and tracked and reported the Repair Project.

Federal Guidance Requires Project Documentation
Marine Corps Order (MCO) P11000.5G “Real Property Facilities Manual, Volume IV,
Facilities Projects Manual” September 30, 2004, states that project documentation is a
critical step in addressing all factors related to the facility requirement. This includes an
approved DD Form 1391 that contains a project justification supported by an adequate
description of the requirement. Project documentation should include a methodology for
addressing all factors related to facility requirements, a record of what actions were taken
to address a particular facility requirement, and how those actions were funded. Further,
installations must retain all project documents for at least 3 years after the last contract
action. Personnel must ensure work descriptions, justifications, and cost estimates for
projects are complete, current, and accurate.

According to Chief of Naval Operations Instruction 11010.20G, “Facilities Project
Instruction,” October 14, 2005, project documentation, validations, approvals, and
authorizations must be maintained in project files for a minimum of 5 years.

Project Documentation Prepared, but Incomplete
2009 DD Form 1391 Prepared Without Source Documents and
Updated Data
PWD personnel did not properly complete the 2009 DD Form 1391. On the 2009
DD Form 1391, PWD personnel stated that building 52609 did not meet current fire



                                              4

protection, seismic, or energy efficiency codes. Also, heavy use of the building led to
deterioration despite preventive maintenance. PWD officials attached pictures3 of
various interior rooms (including the laundry room, bathrooms, and bedrooms in
building 52609) to illustrate the deterioration. However, the pictures did not always
clearly support the information on the DD Form 1391. Additionally, PWD personnel did
not cite source documents (such as current surveys, studies, and inspections) on the
DD Form 1391 to support the need for those repairs. PWD personnel informed us that
they used a 2005 RFP and 2008 walkthrough of building 52609 to develop requirements
for the DD Form 1391. Without sufficient, up-to-date, supporting documentation, the
need for building 52609 to be repaired cannot be fully justified.

2005 Request for Proposal and 2002 DD Form 1391 Prepared,
but Missing Supporting Documentation
PWD personnel used a 2005 RFP and a 2002 DD Form 1391 to develop the Repair
Project’s requirements, but did not have complete documentation (for example, current
surveys, studies, and inspections) to substantiate the basis for the Repair Project. In the
2005 RFP, PWD personnel summarized some of the repairs needed for the Repair
Project. Those repairs included electrical, plumbing, structural, and mechanical repairs.
However, the RFP did not cite or provide source documentation to support the needed
repairs. The 2002 DD Form 1391 indicated the Repair Project was needed to prevent
further deterioration; meet current life, safety, and seismic requirements; maintain
habitability; and improve the living conditions and quality of life for the students. At that
time, MCO P11000.5F “Real Property Facilities Manual, Volume IV, Facilities Projects
Manual,” November 13, 1992, required a Project Survey Data Sheet. PWD personnel
provided an incomplete Project Survey Data Sheet, and the data sheet did not justify the
Repair Project. For example, the data sheet was not completed to show the command
priority for the Repair Project, the impact on operations, or the impact on mission if the
Repair Project was delayed. The data sheet also did not cite references to support repairs
needed for building 52609. The 2005 and 2002 documents should have been updated to
support the current conditions of building 52609.

2008 Walkthroughs Were Not Documented
NAVFAC SW IPT and PWD personnel did not document deficiencies identified during
walkthroughs of building 52609 that they performed in 2008 to update the requirements
for the Repair Project. According to NAVFAC SW IPT and Camp Pendleton PWD
personnel, in 2008, they conducted separate walkthroughs of building 52609 to identify
deficiencies and to gather support for the 2009 RFP. But they were not able to provide us
supporting documentation for these walkthroughs. Without documentation of the
walkthroughs, we did not determine whether the deficiencies cited actually existed.




3
 Camp Pendleton officials stated that they took pictures of building 52609 during a 2008 walkthrough, but
they deemed the pictures unnecessary to include in the 2009 RFP.

                                                    5

2009 Request for Proposal Was Based on Outdated Reports
In the April 2009 RFP, NAVFAC SW personnel cited several reports that supported
some repairs to building 52609; however, those reports were incomplete. The 2009 RFP
included repairs similar to those identified in the 2005 RFP and the 2002 DD Form 1391.
The 2009 RFP also cited 12 reports as source documents. The reports included a site
utilities study; a geotechnical report; and a lead, asbestos, and mold report. Camp
Pendleton PWD personnel stated that the reports supported some of the repairs identified
on the March 2009 DD Form 1391. However, 7 of the 12 reports were either outdated,
required additional review, did not have dates of completion, or did not identify who
prepared the reports. For example, the geotechnical report, published in September 2005,
provided recommendations for addressing building 52609’s condition. According to the
report, it was valid for a 2-year period and recommended another review of its findings
and recommendations if construction was delayed beyond this period. Construction for
the Repair Project began in September 2009, 4 years after the Geotechnical report was
published, and there was no indication that the report was updated. The Lead, Asbestos,
and Mold Report, also published in September 2005, included a combination of three
reports that indicated the potential for mold growth in hidden areas. This report should
have also been updated to show the current condition for potential mold growth.

Economic Analysis Did Not Include Three Steps
PWD officials did not fully complete three of the six steps outlined in NAVFAC
Publication-442, “Economic Analysis Handbook,” (NAVFAC P-442), October 1993.
NAVFAC P-442 identifies a six-step approach: define the objective, generate
alternatives, formulate assumptions, determine costs and benefits, compare costs and
benefits and rank alternatives, and perform sensitivity analysis. Three of the six steps in
the November 24, 2008, economic analysis were not properly completed: define the
objective, formulate assumptions, and perform sensitivity analysis. Specifically:

   •	 PWD officials wrote an objective that did not define and quantify the need to
      repair the 61,430 square foot BEQ facility;
   •	 the assumptions formulated did not fully discuss the effects of inflation or the
      residual value of the building; and
   •	 the sensitivity analysis did not plan for uncertainties pertaining to requirements,
      inflation, and operations.

When asked about the three steps that were not completed, PWD officials stated that time
constraints prevented them from fully completing the economic analysis.




                                             6

Timely Distribution of Recovery Act Funds
NAVFAC HQ personnel allocated $8.9 million in Recovery Act funds to the Repair
Project, and they distributed these funds in a timely manner. The funding document
properly identified the Recovery Act’s designation codes. NAVFAC HQ personnel
allotted approximately $8.3 million of $8.9 million to NAVFAC SW for the Repair
Project. NAVFAC HQ personnel retained about $600,000 of the $8.9 million in reserve.
On June 10, 2009, NAVFAC HQ personnel
                                                         Approximately $800,000 of the
authorized NAVFAC Atlantic to transfer
                                                        $1 million remained and needed
$8.3 million to NAVFAC SW contracting
                                                       to be rescinded by NAVFAC HQ.
personnel. On June 18, 2009, NAVFAC SW
personnel awarded contract N62473-06-D-1059 to Barnhart Incorporated for about
$7.3 million. Of the remaining $1 million, NAVFAC SW personnel stated that
approximately $200,000 was used for asbestos removal and they returned about
$94,000 in Recovery Act funds to NAVFAC HQ on October 23, 2009. Approximately
$800,000 of the $1 million remained and needed to be rescinded by NAVFAC HQ. On
September 21, 2010, NAVFAC SW IPT personnel notified the NAVFAC SW
Comptroller’s Office that the Repair Project was completed and that the remaining funds
should be returned to NAVFAC HQ. As of November 15, 2010, NAVFAC SW
personnel had not yet notified NAVFAC HQ about the remaining $800,000; however,
Comptroller personnel initiated actions to return the remaining $800,000.

Although Recovery Act guidance does not specify a time frame for returning excess
funds, the Act was established to stimulate the economy and assist in the creation and
preservation of jobs. Commands with bid savings should use the funds for other local
projects or return the funds to NAVFAC HQ for prompt distribution to other military
construction projects.

Contract Execution Was Adequate
On June 18, 2009, NAVFAC SW contracting personnel competitively awarded
contract N-62473-06-D-1059 to Barnhart Incorporated for the Repair Project. The
firm-fixed-price contract, valued at about $7.3 million, was awarded based on price. The
Federal Acquisition Regulation (FAR) requires agencies to include specific Recovery Act
clauses in contracts. NAVFAC SW personnel included all applicable clauses.

Processes Were in Place to Track and Report Project
NAVFAC SW contracting personnel had processes in place to track and report the Repair
Project. The contract for the Repair Project contained FAR clause 52.204-11, “American
Recovery and Reinvestment Act–Reporting Requirements,” March 2009, requiring
contractors to report project information to www.federalreporting.gov. The contractor
submitted quarterly reports that included the number of jobs created and retained.

Conclusion
NAVFAC SW IPT and PWD personnel did not adequately plan the Repair Project.
NAVFAC SW IPT and Camp Pendleton PWD personnel did not fully complete the
DD Form 1391 and did not document deficiencies identified during the 2008

                                            7

walkthroughs that they used to update the Repair Project requirements. Although PWD
personnel provided various reports citing a need for repairs to building 52609, those
reports were not current, dated, or properly reviewed. As a result, DoD does not have
reasonable assurance that repairs were necessary and that Recovery Act funds were
appropriately used.

Recommendations, Management Comments, and Our
Response
1. We recommend that the Commanding Officer, Naval Facilities Engineering
Command Southwest:

     a. Require Naval Facilities Engineering Command Integrated Product Team
personnel to comply with Operations Naval Instruction 11010.20G, “Facilities
Project Instruction,” October 14, 2005, for project documentation, including
maintaining supporting documentation.

Department of the Navy Comments
The Principal Deputy, Office of the Assistant Secretary of the Navy (Energy,
Installations, and Environment), responding on behalf of the Commanding Officer, Naval
Facilities Engineering Command Southwest, partially agreed and stated that Naval
Facilities Engineering Command does comply with the Operations Naval Instruction
11010.20G, for Navy projects; however, because the Repair project was a Marine Corps-
funded project, the governing instruction was Marine Corps Order P11000.5G. The
Principal Deputy also stated that neither Instruction requires separate documentation for
site visits.

Our Response
Although the Principal Deputy partially agreed, we believe that Naval Facilities
Engineering Command Integrated Product Team personnel should have documented their
walkthrough. Without documentation, Naval Facilities Engineering Command Integrated
Product Team personnel cannot support their assertions that they identified deficiencies
during their walkthrough. In the absence of such documentation, DoD has no assurance
that deficiencies existed at all or that repairs were needed. We request the Navy to
reconsider its position on the recommendation and provide comments on the final report.

      b. Review the Naval Facilities Engineering Command Southwest Integrated
Product Team’s project requirements documentation for existing projects and
ensure files are accurate and complete.

Department of the Navy Comments
The Principal Deputy agreed and stated Naval Facilities Engineering Command
Southwest Integrated Product Team reviewed its project file pertaining to this Repair
Project and found that documentation was completed in compliance with Naval Facilities
Engineering Command’s Business Management System process. According to the

                                            8

Principal Deputy, this process is followed in the preparation of a request for proposal.
The Integrated Product Team initiated actions to prepare the request for proposal.
Numerous site visits were conducted to better define requirements and the scope of work
in order to ensure that the allocated funding was obligated in the most cost efficient and
effective manner.

Our Response
The Principal Deputy comments were partially responsive. Although Naval Facilities
Engineering Command Southwest Integrated Product Team personnel documented their
work in compliance with the Business Management System and conducted numerous site
visits, the documentation was not sufficient. We believe personnel still should document
(e.g., memorandums or photographs) their findings when significant deficiencies are
identified. This documentation can be used to support their basis for needed repairs. The
involvement of the Integrated Product Team to better define requirements and the scope
of work to support the request for proposal was not communicated during the audit. We
request the Navy reconsider its position on the recommendation and provide comments
on the final report.

      c. Validate that Comptroller Office personnel returned approximately
$800,000 in Recovery Act funds remaining from the Repair Project to Naval
Facilities Engineering Command headquarters.

Department of the Navy Comments
The Principal Deputy agreed and stated that on November 15, 2010, Naval Facilities
Engineering Command Southwest Comptroller’s office was notified that the project was
completed; and on November 22, 2010, $748,113.58 was returned to Naval Facilities
Command headquarters.

Our Response
The Principal Deputy comments are responsive, and no further comments are required.

2. We recommend that the Commanding Officer, U.S. Marine Corps Base Camp
Pendleton:

     a. Require Public Works Department personnel to comply with Marine Corps
Order P11000.5G, “Real Property Facilities Manual,” September 30, 2004,
requirements for project documentation, including completing DD Form 1391s and
maintaining supporting documentation.

    b. Review Camp Pendleton Public Works Department’s project requirements
documentation for existing projects and ensure files are accurate and complete.




                                            9

Department of the Navy Comments
The Principal Deputy, Department of the Navy, responding on behalf of the Commanding
Officer, U.S. Marine Corps Base Camp Pendleton agreed with Recommendation 2.a and
2.b, but did not provide any additional information.

Our Response
Although the Principal Deputy agreed with Recommendations 2.a. and 2.b, his comments
are partially responsive. We request that the Principal Deputy identify the corrective
actions taken to address the deficiencies and provide estimated dates of completion for
those actions. We request the Navy to provide comments on the final report.




                                          10

Appendix A. Scope and Methodology
We conducted this audit from October 2009 through August 2011 in accordance with
generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence, and provide a reasonable
basis for our conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our conclusions.

Of the $1.17 billion provided for Navy projects, we reviewed $8.9 million in Military
Construction funds appropriated to Camp Pendleton for the Repair Project. In the project
summary section of the 2009 DD Form 1391, PWD personnel stated $8.9 million was
required to renovate the 61,430-square-foot facility. The justification was aggregated by
repair cost, special cost, and supporting facilities, including paving and site
improvements and mechanical and electrical utilities.

Our overall audit objective was to evaluate DoD’s implementation of the Recovery Act.
To accomplish our objective, we audited the planning, funding, initial execution, and
tracking and reporting the Repair Project to determine whether DoD complied with
Recovery Act requirements, OMB guidance, the FAR, and DoD implementing guidance.
We determined whether:

   •	 the Repair Project was adequately planned to ensure the appropriate use of 

      Recovery Act funds (planning); 

   •	 funds were awarded and distributed in a prompt, fair, and reasonable manner
      (funding);
   •	 the contract contained required Recovery Act FAR clauses (project execution);
   •	 the Repair Project avoided unnecessary delays and cost overruns (project 

      execution); and

   •	 recipients’ use of funds was transparent to the public and the benefits of the funds
      were clearly, accurately, and timely reported (tracking and reporting).

Specifically, we interviewed the Resident Officer in Charge of Construction and
personnel from NAVFAC SW and Camp Pendleton PWD. They provided project
documentation (such as DD Form 1391s, economic analysis, 2005 and 2009 RFPs,
quality assurance and control plans, and design drawings). We conducted a perimeter
tour of the construction site for building 52609; at that time, the project was in the final
demolition phase.

Use of Technical Assistance
Before selecting DoD Recovery Act projects for audit, the Quantitative Methods Division
of the DoD Office of Inspector General analyzed all DoD agency-funded projects,
locations, and contracting oversight organizations to assess the risk of waste, fraud, and
abuse associated with each. We selected most audit projects and locations using a
modified Delphi technique, which allowed us to quantify the risk based on expert auditor
judgment, and other quantitatively developed risk indicators. We used information

                                              11

collected from all projects to update and improve the risk assessment model. We selected
83 projects with the highest risk rankings; auditors chose some additional projects at the
selected locations.

We did not use classical statistical sampling techniques that would permit generalizing
results to the total population because there were too many potential variables with
unknown parameters at the beginning of this analysis. The predictive analytic techniques
employed provided a basis for logical coverage not only of Recovery Act funds being
expended, but also of types of projects and types of locations across the Military
Services, Defense agencies, State National Guard units, and public works projects
managed by U.S. Army Corps of Engineers.


Use of Computer-Processed Data
We used computer-processed data from the Federal Procurement Data System, Central
Contractor Registration, Excluded Parties List System, Federal Business Opportunities,
the www.federalreporting.gov Web site, and other systems. However, our use of
computer processed data did not materially affect our audit results, findings, or
conclusions, and the information we used was obtained from sources generally
recognized as appropriate. Therefore, we did not evaluate the reliability of the computer-
processed data we used.

Prior Audit Coverage
The Government Accountability Office (GAO), the Department of Defense Office of
Inspector General, and the Military Departments have issued reports and memoranda
discussing DoD projects funded by the Recovery Act. You can access unrestricted
reports at http://www.recovery.gov/accountability.

Unrestricted GAO reports can be accessed over the Internet at http://www.gao.gov.

Unrestricted Army reports can be accessed from .mil and gao.gov domains over the
Internet at https://www.aaa.army.mil/.

Naval Audit Service reports are not available over the Internet.

Air Force Audit Agency reports can be accessed from .mil domains over the Internet at
https://afkm.wpafb.af.mil/ASPs/CoP/OpenCoP.asp?Filter=OO-AD-01-41 by those with
Common Access Cards.




                                            12

Appendix B. Recovery Act Criteria and
Guidance
The following list includes the primary Recovery Act criteria and guidance (notes appear
at the end of the list):

   •	 U.S. House of Representatives Conference Committee Report 111-16, “Making
      Supplemental Appropriations for Job Preservation and Creation, Infrastructure
      Investment, Energy Efficiency and Science, Assistance to the Unemployed, and
      State and Local Fiscal Stabilization, for the Fiscal Year Ending
      September 30, 2009, and for Other Purposes,” February 12, 2009

   •	 Public Law 111-5, “American Recovery and Reinvestment Act of 2009,”
      February 17, 2009

   •	 OMB Memorandum M-09-10, “Initial Implementing Guidance for the American
      Recovery and Reinvestment Act of 2009,” February 18, 2009

   •	 OMB Bulletin No. 09-02, “Budget Execution of the American Recovery and
      Reinvestment Act of 2009 Appropriations,” February 25, 2009

   •	 White House Memorandum, “Government Contracting,” March 4, 2009

   •	 White House Memorandum, “Ensuring Responsible Spending of Recovery Act
      Funds,” March 20, 2009

   •	 OMB Memorandum M-09-15, “Updated Implementing Guidance for the
      American Recovery and Reinvestment Act of 2009,” April 3, 20091

   •	 OMB Memorandum M-09-16, “Interim Guidance Regarding Communications
      With Registered Lobbyists About Recovery Act Funds,” April 7, 2009

   •	 OMB Memorandum M-09-19, “Guidance on Data Submission under the Federal
      Funding Accountability and Transparency Act (FFATA),” June 1, 2009

   •	 OMB Memorandum M-09-21, “Implementing Guidance for the Reports on Use
      of Funds Pursuant to the American Recovery and Reinvestment Act of 2009,”
      June 22, 20092

   •	 OMB Memorandum M-09-24, “Updated Guidance Regarding Communications
      with Registered Lobbyists About Recovery Act Funds,” July 24, 2009

   •	 OMB Memorandum M-09-30, “Improving Recovery Act Recipient Reporting,”
      September 11, 2009

                                           13

    •	 OMB Office of Federal Procurement Policy, “Interim Guidance on Reviewing
       Contractor Reports on the Use of Recovery Act Funds in Accordance with FAR
       Clause 52.204-11,” September 30, 20092

    •	 OMB Memorandum M-10-08, “Updated Guidance on the American Recovery
       and Reinvestment Act–Data Quality, Non-Reporting Recipients, and Reporting of
       Job Estimates,” December 18, 20092

    •	 OMB Memorandum M-10-14, “Updated Guidance on the American Recovery
       and Reinvestment Act,” March 22, 20102

    •	 White House Memorandum, “Combating Noncompliance With Recovery Act
       Reporting Requirements,” April 6, 20102

    •	 OMB Memorandum M-10-17, “Holding Recipients Accountable for Reporting
       Compliance under the American Recovery and Reinvestment Act,” May 4, 20102

Other criteria used to complete this Recovery Act project include:

    •	 Federal Acquisition Regulation

    •	 Office of the Chief of Naval Operations Naval Instruction 11010.20G, “Facilities
       Projects Instruction,” October 14, 2005

    •	 NAVFAC Publication 442, “Economic Analysis Handbook,” October 1993

    •	 DoD Instruction 7041.3, “Economic Analysis for Decision-making,” 

       November 7, 1995 


    •	 Marine Corps Order P11000.5F, “Real Property Facilities Manual,” 

       November 13, 1992 


   •	 Marine Corps Order P11000.5G, “Real Property Facilities Manual,”
      September 30, 2004
Notes
1
 Document provides Government-wide guidance for carrying out programs and activities enacted in the
American Recovery and Reinvestment Act of 2009. The guidance states that the President’s commitment
is to ensure that public funds are expended responsibly and in a transparent manner to further job creation,
economic recovery, and other purposes of the Recovery Act.
2
 Document provides Government-wide guidance for carrying out the reporting requirements included in
section 1512 of the Recovery Act. The reports will be submitted by recipients beginning in October 2009
and will contain detailed information on the projects and activities funded by the Recovery Act.




                                                     14

Department of the Navy Comments





                  Click to add JPEG file




                                 15

Click to add JPEG file




               16

Click to add JPEG file




               17

